               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        U.S. Postal Service’s Delivering
        Results, Innovation, Value, and
        Efficiency Initiative 6, Improve
             Employee Availability

                       Audit Report




                                              March 7, 2014

Report Number DP-AR-14-001
                                                                            March 7, 2014

                                                U.S. Postal Service’s Delivering Results,
                                             Innovation, Value, and Efficiency Initiative 6,
                                                           Improve Employee Availability

                                                           Report Number DP-AR-14-001



BACKGROUND:
The U.S. Postal Service originally           was not shared with the Executive
established 36 Delivering                    Leadership Team and did not appear on
Results, Innovation, Value, and              the executive level dashboard. These
Efficiency (DRIVE) initiatives in fiscal     omissions occurred because there was
year (FY) 2011 to improve business           no separation of duties between the
strategy. DRIVE aims to reduce the           DRIVE initiative lead and roadmap
reported $20 billion gap between             owner. The initiative lead establishes
revenue and expenses by 2016 through         the impacts and milestones and reports
data driven program and project              progress on project goals. The roadmap
management. The Postal Service               owner is responsible for initiating and
updates the portfolio of drive initiatives   executing the project plans. These
annually and there were 24 DRIVE             duties should be assumed by different
initiatives in FY 2013. DRIVE 6 was one      individuals to ensure adequate
of six human resource DRIVE initiatives.     separation of duties. We also noted that
                                             there was no independent internal audit
The objective of DRIVE 6 was to              process to oversee DRIVE
increase employee availability through       management.
five separate projects. These projects
aimed to reduce workers’ compensation        During our audit the Postal Service
costs by $80 million annually; return        closed DRIVE 6 because the Executive
injured employees to work; and reduce        Leadership Team decided a
accidents, reportable workplace injuries     consolidated human resources initiative
and illnesses, and reduce sick leave.        would be more effective than multiple
                                             initiatives.
Our objective was to determine whether
the DRIVE 6 initiative used established      WHAT THE OIG RECOMMENDED:
DRIVE project management processes.          We recommended the director, Strategic
                                             Planning, establish a process to ensure
WHAT THE OIG FOUND:                          DRIVE project management roles such
The DRIVE 6 initiative did not use           as the initiative lead and roadmap owner
established DRIVE project management         are held by separate individuals. We
processes. The five projects comprising      also recommended management
the initiative consisted of operations       evaluate implementing regular audits
already being accomplished outside of        and controls for each project at the
DRIVE. Further, the projects were            project management level.
characterized as over resourced or
under ambitious, but this information        Link to review the entire report
March 7, 2014

MEMORANDUM FOR:            EMIL J. DZURAY, JR.
                           DIRECTOR, STRATEGIC PLANNING


                                E-Signed by Janet Sorensen
                            ERIFY authenticity with eSign Deskto




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Business

SUBJECT:                   Audit Report – U.S. Postal Service’s Delivering Results,
                           Innovation, Value, and Efficiency Initiative 6, Improve
                           Employee Availability
                           (Report Number DP-AR-14-001)

This report presents the results of our audit of the U.S. Postal Service’s Delivering
Results, Innovation, Value, and Efficiency Initiative 6 to Improve Employee Availability
(Project Number 13RG016DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
U.S. Postal Service’s Delivering Results,                                                                          DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

DRIVE 6 Project Management ........................................................................................ 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Management's Comments ........................................................................ 10
U.S. Postal Service’s Delivering Results,                                                            DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




Introduction

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Delivering Results, Innovation, Value, and Efficiency (DRIVE) Initiative 6, Improve
Employee Availability (DRIVE 6) (Project Number 13RG016DP000). Our objective was
to determine whether the DRIVE 6 initiative used established DRIVE project
management processes. See Appendix A for additional information about this audit.

The Postal Service uses DRIVE to manage strategic programs designed to close an
identified $20 billion revenue and expense gap by fiscal year (FY) 2016. This includes
about $16 billion related to legislative efforts to reduce Postal Service prefunding costs
in employee retirement benefits and health care. The Postal Service defined 36 key
DRIVE initiatives in FY 2011, each to address a strategic program area. Each initiative
consists of roadmaps and projects 1 with specific annual and cumulative goals to
achieve cost cutting and revenue growth objectives. The Strategic Management Office
(SMO) tracks the Postal Service’s performance and progress towards these goals. The
SMO also provides project management guidance and standardized processes for
managing program initiatives and reporting to the Executive Leadership Team (ELT).

DRIVE 6 consisted of five program objectives to improve employee availability.
One goal was to reduce workers’ compensation costs with targeted annual savings of
$80 million. The remaining four objectives don’t have an identified financial impact. They
focus on:

   Returning injured employees to work.
   Reducing the number of accidents.
   Reducing the rate of reportable workplace injuries and illnesses.
   Reducing sick leave.

Conclusion

The DRIVE 6 initiative did not use established DRIVE project management processes.
The five projects comprising the initiative consisted of operations previously being
accomplished outside of DRIVE. Further, the measurement tool 2 used by the SMO to




1
 The collection of program level activities critical to success of an initiative.
2
 The Postal Service originally used the Boston Consulting Group’s, Duration, Integrity, Commitment, and Effort
(DICE) tool as part of risk assessment during rigor testing.
                                                             1
U.S. Postal Service’s Delivering Results,                                                                 DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


test roadmaps characterized DRIVE 6 projects as over resourced or under ambitious,
but this information was not shared with the ELT. 3 During our audit in November 2013,
the Postal Service closed DRIVE 6 because the ELT decided one consolidated human
resources initiative would be more effective than multiple initiatives. 4

DRIVE 6 Project Management

Management did not use established DRIVE project management processes in
developing projects to support DRIVE 6. Instead, the five projects used to improve
employee availability were operations previously being accomplished outside of DRIVE.

The Postal Service’s DRIVE project management process has five phases:

   Initiation – The process to define new projects with measurable outcomes.

   Planning – The creation and approval of work plans to achieve project objectives.

   Executing – The performance of the approved work plans.

   Monitoring and Controlling – The process of tracking, reviewing, managing change,
    and reporting on progress.

   Closing – The end of the project lifecycle when objectives are achieved and
    outcomes are reviewed.

A key attribute of successful project management is risk assessment when the project
starts. The SMO performs this risk assessment by testing each initiative to gauge the
likelihood of success. This included a risk test of the roadmaps using the DICE
measurement tool, which provided recommendations to management. This initial
assessment process, called rigor testing, is designed to ensure the projects contribute
to the overall program goals. The assessment tests for:

   Risks – The uncertain events or conditions that could have positive or negative
    effects on a project’s objectives.

   Impact – The measurement of success that aligns with program objectives.

   Timing – The duration between milestones or to the completion of the project.

   Management commitment – The amount of effort dedicated to change and to
    communicating the message throughout the organization.
3
  The ELT consists of the postmaster general and chief executive officer; the deputy postmaster general; the chief
operating officer and executive vice president (EVP); the chief information officer and EVP; the chief financial officer
and EVP; the chief marketing and sales officer and EVP, the general counsel and EVP; and the chief human
resources officer and EVP.
4
  The DRIVE was closed during the annual review of all DRIVE initiatives.

                                                            2
U.S. Postal Service’s Delivering Results,                                       DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




Factors are graded individually and combined to create an overall DICE score. A
passing score within the range of 7 to 14 indicates that a project is likely to succeed.
DRIVE 6 scored an 8.5 on the initial test.

Although the SMO gave the initiative a passing score, the DICE measurement tool said
the DRIVE 6 projects were “over resourced or under ambitious.” However, the ELT
sponsor was not required to act on this comment because the projects received a
passing score. Also, the SMO’s concerns about the roadmap were not communicated to
the ELT because they were not on the executive level dashboard view of DRIVE 6.
Further, DRIVE 6 management did not change the projects because the same person
was both initiative lead and roadmap owner (RMO). These duties are supposed to be
assumed by different individuals responsible for creating the initiative’s overall goals.
The initiative lead establishes the impacts and milestones and reports progress on
project goals to the ELT sponsor. The RMO forms and monitors the teams and is
responsible for schedule and risk management as part of initiating and executing the
project plans. Having different individuals performing these functions provides a check
and balance that improves overall program management.

Additionally, the SMO provides guidance on project management, but does not require
independent audits to ensure projects follow best practices. Without an independent
audit there was no way to ensure that project management addressed the SMO's
concerns or any other concerns that may have arisen.

Recommendations

We recommend the director, Strategic Planning:

1. Establish and implement a process to ensure that Delivering Results, Innovation,
   Value, and Efficiency project management roles, are clearly identified and not
   performed by the initiative lead and roadmap owner.

2. Evaluate implementing regular audits and controls for each project at the project
   management level.

Management’s Comments

Management agreed with recommendation 1 and will reinforce the current guidelines
regarding a separation of duties by providing additional communication and adding
checks to the rigor testing process by the end of Quarter (Q) 3, FY 2014. Management
also agreed with recommendation 2 and will evaluate implementing regular audits of
strategic programs and projects by the end of Q4, FY 2014.




                                               3
U.S. Postal Service’s Delivering Results,                                      DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


Management disagreed with three aspects of the finding. First, management stated that
they used established DRIVE project development management processes to support
DRIVE 6 and asserted that DRIVE governance does not prohibit initiatives that existed
prior to the implementation of DRIVE. Second, management disagreed that the SMO
gave the initiative a passing score. They said the ELT considered and discussed the
automated score and status comments from the DICE tool when formulating the
initiative. Finally, management disagreed that changes to projects were not made
because the same person was both initiative lead and RMO. Management stated that
the existing organizational structure provided the necessary oversight of the initiative.

Management also provided two clarifications for the report regarding rigor testing and
the DICE management tool.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

Management stated that they used established DRIVE project management processes
in developing projects to support DRIVE 6, and that DRIVE governance does not
prohibit including initiatives that existed prior to the implementation of DRIVE. We agree
that DRIVE governance does not prohibit including initiatives that existed prior to the
implementation of DRIVE; however, the basis for our finding was that the initiatives did
not have bold, significant, and measurable outcomes and did not aggressively address
costs. The DRIVE 6 initiative did not aggressively address costs because the cost
containment goal was less than management achieved before DRIVE 6. The initiative
also had another roadmap with planned goals that were less than that achieved prior to
DRIVE.

Management also disagreed with our assertion that the SMO gave the initiative a
passing score. They stated that the ELT considered and discussed the automated score
and status comments from the DICE tool when formulating the initiative. We recognize
that the DICE risk assessment consisted of four components and was only one indicator
of the probability of success. Although the score and analytical recommendations were
generated as part of the DICE tool, the SMO provided this risk assessment tool for
RMOs to use during the project initiation phase. Further, a review of the risk
assessment is part of rigor testing. Management also stated that the ELT considered
and discussed the automated status comments from the DICE tool when formulating the
initiative. However, our review of the documentation provided to the ELT showed the
team only saw the green traffic light condition of the initiative and not the analytical
recommendations. When asked, management could not provide the OIG with
documentation showing these comments were shared with the ELT.


                                               4
U.S. Postal Service’s Delivering Results,                                          DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


Management also disagreed that changes to projects were not made because the same
person assumed both roles of initiative lead and RMO. Management asserts that the
organizational structure that was in place provided necessary oversight of the initiative.
However, that organizational structure was not sufficient to ensure the vice president,
Employee Resource Management, and the chief human resources officer and EVP
reviewed analytical recommendations from risk assessments. A separation of duties
between the initiative lead and RMO will help ensure that stakeholders receive all
critical information. Subsequently, closing and restructuring DRIVE 6 into one
consolidated human resources initiative established the appropriate separation of duties
for project management roles.

Management provided two clarifications to the report about the role of the DICE tool as
it relates to rigor testing. We clarified in the report that the initial assessment process is
called rigor testing. Management also stated that the DICE risk assessment was one
component of the original rigor testing; therefore we modified footnote 2 in the report to
reflect this clarification.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               5
U.S. Postal Service’s Delivering Results,                                                               DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


                                 Appendix A: Additional Information

Background

The Postal Service established 36 DRIVE initiatives in FY 2011 to improve business
strategy. DRIVE aims to reduce the Postal Service’s reported $20 billion gap between
revenue and expenses by 2016 through data-driven program and project management.
However, almost $16 billion of that gap is dependent on legislative actions by the U.S.
Congress. Annually, the Postal Service reviews and adjusts the portfolio of initiatives in
order to achieve its strategic objectives. There were 24 initiatives in FY 2013 aligned
with four core strategies 5 and eight operational objectives. 6

The DRIVE organizational structure refers to three levels of management as initiatives,
roadmaps, and projects. Roadmaps are the collection of program level activities critical
to the success of an initiative. They consist of projects with clearly identified impacts
and indicators, milestones, interdependencies, and risks. See Figure 1.

                                         Figure 1: DRIVE Pyramid




Source: Technology Management Office System (TMOS) DRIVE User Guide, page 8.

Each year the ELT sponsors recommend initiatives to include in the DRIVE portfolio.
The general parameters the ELT uses to reassess and add critical initiatives are those
initiatives that:




5
  These are 1) improve customer experience; 2) compete for the package business; 3) strengthen the business to
consumer channel; and 4) build a leaner, smarter, and faster organization.
6
  These are 1) grow revenue from innovation, core products, and markets, 2) establish the digital platform, 3)
optimize cost of operations and infrastructure to match future demands, 4) build competitive workforce of the future,
5) improve customer experience measurement processes, 6) leverage technology to drive business value, 7)
strengthen financial and risk management capabilities, and 8) assure executive transparency.

                                                           6
U.S. Postal Service’s Delivering Results,                                                           DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




 Are bold and have significant and measurable outcomes, such as:

    o   Have greater than $50 million in revenue contribution or cost reduction.
    o   Improve key stakeholder alignment.
    o   Greatly enhance key capabilities.
    o   Grow revenue from new products/markets/customers.

   Aggressively address cost in the next few years to get ahead of revenue plan.
   Are critical to either the short- or long-term success of the Postal Service.
   Require extensive cross enterprise coordination and ELT visibility.
   Merit use of top staff members and resources.

The Postal Service moved all human resource based projects, including DRIVE 6,
under a new charter for FY 2014. The DRIVE Initiative 45, Building the Workforce of the
Future, will encompass all six previous initiatives under the chief human resource
officer. 7

The Postal Service’s DRIVE guidelines have five key project management phases: 8

   Initiation.
    o Define a new project, complete a project charter with measurable objectives, and
         authorize project launch.

   Planning.
    o Define the course of action to achieve project objectives, and create and receive
       approval for the project scope, schedule, budget, resources, quality standards,
       and risk management plan.

   Executing.
    o Perform the defined work, including managing the team and approving any
       changes to the plan.

   Monitoring and Controlling.
    o Track, review, and report on the progress of the project. Analyze variances to
      plan schedules, costs, and scope and manage any necessary course
      corrections.




7
  The six DRIVE Initiatives are Develop Labor Agreements to Build Future Workforce (5); Improve Employee
Availability (6); Resolve Disputes Effectively (7); Analyze Workforce Needs and Manage the Change (8); Establish
Postal Service Health Care Plan (9); and Leadership Identification and Development (26).
8
  The Project Management Institute’s, Project Management Book of Knowledge; and the International Organization
for Standardization (ISO) committee for project management ISO Standard 21500 use similar terminology.

                                                        7
U.S. Postal Service’s Delivering Results,                                      DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




   Closing.
    o Receive sign-off that the project outcomes have met the objectives. Close all
       activities and archive documents along with lessons learned.

To help establish and coordinate DRIVE, the Postal Service created the SMO.
The SMO manages projects through the TMOS by tracking performance and progress
on milestones, risk, impacts, and roadmap completion. TMOS provides a color coded
traffic light dashboard view for executive and cross-functional insight into strategies,
programs, and projects. The red, yellow, and green traffic light colors are used to show
variances from planned financial and nonfinancial metrics. The SMO has standardized
processes for managing program initiatives and reporting to the ELT. These include
criteria to approve and manage initiatives such as the uniform formatting of charters,
quarterly metric reporting, and communication with project managers. Each initiative
must be staffed with a person who has completed DRIVE project management training.
The SMO provides the DRIVE project management training using classroom and virtual
training sessions, online resources, and individual guidance.

Objective, Scope, and Methodology

Our objective was to determine whether the DRIVE 6 initiative used established DRIVE
project management processes. To accomplish our objective, we:

   Reviewed procedures and criteria related to establishment of DRIVE initiatives.

   Discussed project management of DRIVE 6 with Enterprise Resource Management
    (ERM) personnel, including the establishment and alignment of goals and targets
    with overall portfolio goals. We also discussed differences in ongoing ERM projects
    in comparison with current DRIVE projects and program metrics.

   Reviewed project management information, guidelines, training material, and
    support provided by the SMO.

   Reviewed change requests submitted to the SMO and subsequent approvals for
    roadmaps, milestones, and established metrics. Discussed approval process with
    SMO and RMOs.

   Researched comparable metrics within employee availability, including Department
    of Labor workers’ compensation data; Occupational Safety and Health
    Administration injury and illness statistics; and government return-to-work projects.

   Researched studies on sick leave usage, including comparable federal and private
    industry goals.




                                               8
U.S. Postal Service’s Delivering Results,                                   DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


   Reviewed available reports in the Postal Service’s TMOS for information on
    DRIVE 6 project management.

   Reviewed Business Process Flowcharts to gain an understanding of the Postal
    Service’s workers’ compensation process.

   Discussed the reliability of data systems and reports used to measure success of
    DRIVE 6 with ERM personnel.

   Discussed the establishment and management of ERM projects in comparison with
    current DRIVE projects and program metrics.

We conducted this performance audit from May 2013 through March 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with managers on January 21, 2014, and included their comments
where appropriate.

We assessed the reliability of computer generated data from the TMOS by comparing
key information against separately prepared documents provided by management. We
determined the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG report titled U.S. Postal Service’s Delivering Results, Innovation, Value, and
Efficiency Management (Report Number DP-AR-13-008, dated June 19, 2013) found
the Postal Service’s DRIVE program compares favorably to the best-in-class program
management practices; however, it does not ensure that projects will be successful.
DRIVE does not use an important best practice that requires regular audits and controls
for each project at the program manager level. Further, a formal policy supporting the
overall program management process has not been developed. Management agreed
with our findings and recommendations yet thinks DRIVE does control and provide
reviews or “audits” of strategic programs and projects through bi-weekly Deep-Dive
meetings.




                                               9
U.S. Postal Service’s Delivering Results,                        DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability


                             Appendix B: Management's Comments




                                               10
U.S. Postal Service’s Delivering Results,           DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




                                               11
U.S. Postal Service’s Delivering Results,           DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




                                               12
U.S. Postal Service’s Delivering Results,           DP-AR-14-001
 Innovation, Value, and Efficiency
 Initiative 6, Improve Employee Availability




                                               13
